IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-12972
________________________
D.C. Docket No. 8:16-cv-02111-CEH-MAP
MARK CHAPMAN, individually and as personal
representative of the Estate of Gregory Chapman,
deceased, and the Estate of Barbara Chapman,
deceased, IRENE CHAPMAN,
Plaintiffs-Counter
Defendants-Appellants,
KATHY RUFF, et al.,
Plaintiffs-Counter
Defendants,
versus
ACE AMERICAN INSURANCE COMPANY,
a foreign corporation f.k.a. Cigna Insurance
Company,
Defendant - Counter
Claimant - Appellee.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
1a

(May 21, 2019)
OPINION
Before TJOFLAT, JORDAN, and EDMONDSON,
Circuit Judges.
PER CURIAM:
In this insurance coverage dispute, Plaintiffs
Mark Chapman – individually and as personal
representative of the Estates of Barbara Chapman
and of Gregory Chapman -- and Irene Chapman
appeal the district court’s grant of summary judgment
in favor of ACE American Insurance Company
(“ACE”). The district court concluded that ACE owed
no duty to defend or to indemnify its insured, Robert
Taylor, against Plaintiffs’ claims in an underlying
state court lawsuit (the “Underlying Suit”). No
reversible error has been shown; we affirm.
Mark and Barbara Chapman’s ten-year old son,
Gregory, was diagnosed with Attention Deficit
Hyperactivity Disorder (“ADHD”) and had a history of
behavioral problems, including stealing and a selfinflicted gunshot to the leg. After receiving a referral
from the Department of Children and Family
Services, the Chapmans engaged Taylor to provide
mental health counseling services to Gregory. Taylor
conducted counseling sessions with Gregory between
January and May 1998. In May 1998, Gregory
committed suicide.

2a

In 1999, Taylor pleaded guilty in state court to
four felony counts of organized fraud and twenty
felony counts of grand theft. Taylor’s offense conduct
included, among other things, providing -- and
collecting payment for – unlicensed counseling
services to patients, including Gregory.
Shortly thereafter, Plaintiffs served Taylor with a
Notice of Intent to Initiate Litigation. Plaintiffs
alleged that “Taylor was not a licensed drug abuse or
mental health counselor for minors such as Gregory
Chapman.” Plaintiffs also alleged that Gregory
“suffered from mental problems which were
aggravated by the treatment provided by Robert
Taylor” and that Taylor’s treatment “played a
substantial part” in Gregory’s death.
Plaintiffs later filed the Underlying Suit against
Taylor and his business, Recovery Concepts.1
Plaintiffs asserted claims for wrongful death, unjust
enrichment, unfair and deceptive trade practices, and
infliction of severe emotional distress. Briefly stated,
Plaintiffs alleged that Taylor held himself out to the
public as a licensed provider of mental health
1 Kathy and William Ruff and their daughter, Melissa
LaGotte, were also plaintiffs in the Underlying Suit. The
Ruffs/LaGotte alleged injuries resulting from Taylor’s provision
of unlicensed counseling services to LaGotte. The Ruffs/LaGotte
reached a settlement with ACE and are not parties to this appeal.
In deciding ACE’s motion for summary judgment, the district
court limited its analysis to the Chapmans’ claims and said that
allegations about LaGotte were not pertinent to whether
coverage existed under the Policy for the Chapmans’ claims.
Plaintiffs raise no challenge to that ruling on appeal.

3a

counseling and substance abuse services to minors,
when he was neither licensed nor qualified by
education and experience to provide such services.
Plaintiffs contend that Taylor’s “counseling”
contributed to Gregory’s death and caused Plaintiffs
emotional and financial injury.
At all times pertinent to this appeal, Taylor was
insured under an Allied Health Care Provider
Professional and Supplemental Policy issued by ACE
(“Policy”). ACE refused, however, to defend Taylor
against the Underlying Suit. ACE first determined
that no coverage existed under the Policy because
Plaintiffs’ alleged injuries did not arise from covered
“professional services.” ACE also determined that
coverage was precluded by the Policy’s exclusion
provisions.
Following mediation, Plaintiffs and Taylor
entered into an Agreement to Enter into a Consent
Judgment, also known as a Coblentz2 agreement
(“Agreement”). Pursuant to the Agreement, the
parties agreed to the entry of a consent judgment in
excess of $5 million against Taylor and Recovery
Concepts, to be collected from available insurance
proceeds. Taylor also assigned to Plaintiffs his rights
under the Policy. Plaintiffs then filed the instant
lawsuit, seeking recovery from ACE.
The district court granted summary judgment in
favor of ACE. The district court concluded that ACE
2 Coblentz v. Am. Sur. Co. of N.Y., 416 F.2d 1059 (5th Cir.
1969).

4a

owed no duty to defend against Plaintiffs’ claims in
the Underlying Suit because the acts or omissions
alleged by Plaintiffs constituted no “professional
services” under the Policy. The district court also
determined that Plaintiffs’ allegations fell within the
Policy’s exclusion provisions. Because ACE had no
duty to defend, the district court determined that ACE
owed no duty to indemnify.
We review de novo a district court’s grant of
summary judgment, applying the same legal
standards as the district court. Whatley v. CNA Ins.
Cos., 189 F.3d 1310, 1313 (11th Cir. 1999). Summary
judgment is appropriate when the evidence, viewed in
the light most favorable to the nonmoving party,
presents no genuine issue of material fact and compels
judgment as a matter of law. Holloman v. Mail-Well
Corp., 443 F.3d 832, 836-37 (11th Cir. 2006).
We are bound by the substantive law of Florida in
deciding this diversity case. See Erie R.R. Co. v.
Tompkins, 304 U.S. 64 (1938). To recover under a
Coblentz agreement, “the injured party must bring an
action against the insurer and prove coverage,
wrongful refusal to defend, and that the settlement
was reasonable and made in good faith.” Chomat v.
Northern Ins. Co., 919 So. 2d 535, 537 (Fla. Dist. Ct.
App. 2006).
Under Florida law, an insurer owes a duty to
defend its insured “when the complaint alleges facts
that fairly and potentially bring the suit within policy
coverage.” Jones v. Fla. Ins. Guar. Ass’n, Inc., 908 So.
2d 435, 442-43 (Fla. 2005). “Any doubts regarding the
5a

duty to defend must be resolved in favor of the
insured.” Id. at 443. If the alleged facts and legal
theories asserted in the complaint fall outside a
policy’s coverage, no duty to defend arises. See
Chicago Title Ins. Co. v. CV Reit, Inc., 588 So. 2d 1075,
1075-76 (Fla. Dist. Ct. App. 1991). Where there exists
no duty to defend, an insurer has no duty to
indemnify. Wellcare of Fla., Inc. v. Am. Int’l Specialty
Lines Ins. Co., 16 So. 3d 904, 907 (Fla. Dist. Ct. App.
2009).
When an insurance policy’s language is “clear and
unambiguous,” it is construed according to its plain
language. Auto-Owners Ins. Co. v. Anderson, 756 So.
2d 29, 33 (Fla. 2000). In other words, “[i]f the language
of an insurance policy is clear, it must be construed to
mean what it says and nothing more.” Gen. Sec. Ins.
Co. v. Barrentine, 829 So. 2d 980, 981 (Fla. Dist. Ct.
App. 2002). “Courts have no power to create insurance
coverage, if it does not otherwise exist by the terms of
the policy.” Id.
Under the Policy, ACE agreed to “pay all amounts
up to the limit of liability, which you become legally
obligated to pay as a result of injury or damage to
which this insurance applies.” The Policy provides
that Professional Liability Coverage is available only
if the “injury or damage” was “caused by a medical
incident arising out of professional services by you . .
..” Likewise, Supplemental Liability Coverage is
available only for “injury or damage” that “occur[red]
in the course of providing your professional services.”

6a

The Policy defines the term “Medical Incident” as
“any act, error or omission in the providing of or
failure to provide professional services by you.” The
term “Professional Services” “means those services
you are licensed, trained, or being trained to provide
within the allied health field specified in your
application and approved by us for coverage.” The
Policy identifies Taylor’s Professional Occupation as
“Drug & Alcohol Abuse Counselor.” (emphasis added).
In the Underlying Suit, Plaintiffs made these
factual allegations:
10. At all material times, Taylor held himself
out to the public as properly licensed to
provide mental health consulting to minors
and adults, and family counseling, as
required by Florida Statute 491.012(2),
when in fact he was not licensed to provide
said services.
19a. Mark and Barbara Chapman were having
behavioral problems with their son, Gregory
Chapman, which included stealing little
items out of Barbara’s purse. . . . The
Chapmans were . . . told that Taylor could
help with Gregory’s behavioral problems
and had ADHD training and could help
treat Gregory’s ADHD problems.
36. Defendant Taylor was not qualified by
education, experience or any license issued
by the State of Florida to provide mental
health counseling to juveniles or adults.
7a

In support of their wrongful death claim,
Plaintiffs also made these allegations:
43. Taylor and Concepts breached their duties
to the plaintiffs and are strictly liable for
such breach, in that they concealed from
Gregory Chapman and his parents that
Taylor was not competent or licensed to
provide mental health counseling to
Gregory Chapman. In addition, at no time
through the treatment course of Gregory
Chapman did the Defendants refer Gregory
Chapman to any qualified mental health
provider or otherwise seek a qualified
medical opinion as to Gregory Chapman’s
mental condition and appropriate treatment
therefore.
49. Defendants breached their duty to the
Plaintiffs by failing to refer or suggest
referral of Gregory Chapman to a qualified
mental health provider.
The amended complaint contained no allegations
that Gregory struggled with substance abuse, that
Plaintiffs hired Taylor to provide substance abuse
counseling services for Gregory, or that Taylor
provided substance abuse counseling for Gregory.3
3 To the extent the amended complaint contained allegations
about substance abuse counseling, we read those allegations as
pertaining only to claims asserted by the Ruffs/LaGotte. We have
looked at these words from paragraph 117 of the amended

8a

Under Florida law, mental health counseling and
substance abuse counseling are treated as distinct
professions, governed by different statutes, and
licensing and training requirements. Compare Fla.
Stat. § 491.02, et seq. (mental health and family
counselors) with § 397.401, et seq. (substance abuse
counselors). In the light of Plaintiffs’ allegations in the
Underlying Suit, Taylor’s complained-of conduct falls
clearly outside the Policy’s definition of “professional
services.” Under the plain language of the Policy,
“professional services” means “Drug & Alcohol Abuse
Counsel[ing]” services for which Taylor was “licensed,
trained, or being trained to provide.” Plaintiffs alleged
complaint: “. . . Defendants provided Plaintiffs with mental
health and substance abuse counseling . . ..”
Read in context, paragraph 117 refers plainly only to Taylor’s
counseling of LaGotte and the Ruffs. Paragraph 117 fell under
the heading “Count VII, Negligence, Plaintiffs Kathy Ruff,
William Ruff and Melissa LaGotte.” The first paragraph under
Count VII (paragraph 89) says “Plaintiffs, Kathy Ruff, William
Ruff and Melissa Lagotte sue Defendants and allege as follows.”
Paragraphs 91 through 115 then set forth factual allegations
specific to Taylor’s conduct in relation to the Ruffs and to
LaGotte. Paragraph 116 alleged that, as mental health and
substance abuse counselors, Defendants owed Plaintiffs a duty of
care and protection.
Paragraph 117 then reads: “Defendants failed to provide
such care and protection to Plaintiffs during such time
Defendants provided Plaintiffs with mental health and
substance abuse counseling, and therefore, breached their duty
of care.” (emphasis added). Paragraphs 118 and 119 then alleged
that, as a direct and proximate result of Defendants’ actions, the
Ruffs and LaGotte suffered damages. Given the surrounding
language of the amended complaint, the term “Plaintiffs” in
paragraph 117 refers only to the Ruffs and to LaGotte: not the
Chapmans.

9a

only that Taylor provided mental health counseling to
Gregory: not substance abuse counseling. Moreover,
Plaintiffs’ allegations that Taylor lacked the required
licensure, education, or experience to provide mental
health counseling to Gregory compels a conclusion
that Taylor’s complained-of counseling services were
no “professional services” under the Policy.
Viewing the record in the light most favorable to
Plaintiffs, no genuine issue of material fact exists.
Because Plaintiffs have failed to allege facts that
“fairly and potentially bring the suit within policy
coverage,” the district court concluded correctly -- as a
matter of Florida law -- that ACE owed no duty to
defend or to indemnify Taylor against Plaintiffs’
claims in the Underlying Suit.4 See Jones, 908 So. 2d
at 442-43; Wellcare of Fla., Inc., 16 So. 3d at 906.
AFFIRMED.5

4 We reject Plaintiffs’ contention that the public policy,
legislative intent, or language of Florida’s statutes governing
substance abuse services (Fla. Stat. § 397 et seq.) give rise to a
statutorily mandated duty to defend in this case.
5 Because we conclude that ACE owed no duty to defend or to
indemnify Taylor, we do not reach the district court’s alternative
ruling that the Coblentz Agreement was unenforceable because
it failed to allocate the damages attributed to the covered and
non-covered claims.

10a

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
________________________________________________
Case No: 8:16-cv-2111-T-36MAP
________________________________________________
MARK CHAPMAN et al.,
Plaintiffs,
v.
ACE AMERICAN INSURANCE COMPANY,
Defendant.
_________________________________________________
[Filed: June 21, 2018]
ORDER
This matter comes before the Court upon the
Defendant’s Motion for Summary Judgment (Doc. 31),
Plaintiffs’ response (Doc. 37), Defendant’s reply (Doc.
43), and Plaintiffs’ Motion for Partial Summary
Judgment (Doc. 32), Defendant’s response (Doc. 35),
and Plaintiffs’ reply (Doc. 44). The Court, having
considered the motions, including oral argument, and
being fully advised in the premises, will grant
Defendant’s Motion for Summary Judgment and deny
Plaintiffs’ Motion for Partial Summary Judgment.
11a

I. STATEMENT OF FACTS1
Plaintiff Mark Chapman, individually and as
Personal Representative of the Estate of Gregory
Chapman, deceased, and Personal Representative of
the Estate of Barbara Chapman, deceased
(“Chapman”), filed this complaint against Defendant
ACE American Insurance Company (“ACE”) based on
the following facts.2
In 1995, Robert Taylor began a fraudulent scheme
to collect fees for services as a substance abuse
counselor using the business name Recovery
Concepts. See Doc. 31-23 at 23. In October 1999, in an
open plea, Taylor pleaded guilty to four felony counts
of organized fraud and twenty felony counts of grand
theft arising from his activities as an unlicensed
ostensible provider of substance abuse counseling
services to Gregory Chapman and Melissa LaGotte,
among others. Id. at 5-9. In stating the factual
predicate for the open plea, the prosecutor informed
the court that Taylor “treated numerous patients for
substance abuse counseling and other types of
The Court has determined the facts, which are undisputed
unless otherwise noted, based on the parties’ submissions,
including stipulations, depositions, affidavits, and attachments
thereto.
1

2 Plaintiffs Kathy Ruff, William Ruff, and Melissa LaGotte
settled their claims with Defendant. Doc. 42. Accordingly, the
Court will focus on Chapman’s claims in its analysis, unless
otherwise indicated.
3

Declaration of John Williams with exhibits.

12a

counseling. He was not properly licensed to provide
substance abuse counseling to anyone….” Id. at 19.
Taylor was sentenced to prison.
a. The Policy
ACE issued Allied Health Care Provider
Professional and Supplemental Policy No. 011922 (the
“Policy”), to Robert D. Taylor (“Taylor”) for the period
covering February 1, 1997, to February 1, 1999. Doc.
32-11. The Policy provides limits of $1 million for
professional liability per medical incident, $1 million
for supplemental liability per occurrence, and $1
million personal injury coverage per claim or $3
million in the aggregate. The Policy defines
Professional Occupation as “Drug & Alcohol Abuse
Counselor.” Id. at 2. The Policy also states the
following:
COVERAGE AGREEMENTS
We will pay all amounts up to the limit of
liability, which you become legally obligated to
pay as a result of injury or damage to which this
insurance applies. The injury or damage must
be caused by a medical incident arising out of
professional services by you or anyone for
whose professional services you are legally
responsible.
The medical incident as described above must
happen on or after the effective date and before
the end of the policy term stated on the
Declarations of this policy.
13a

We have the right to and will defend any claim.
We will:
A. do this even if any of the charges of the claim
are groundless, false or fraudulent;
B. investigate and settle any claim as we feel
appropriate.
Id. at 5. The Policy also provides Supplemental
Liability coverage and states:
1. COVERAGE AGREEMENTS
A. We will pay all amounts up to the limits of
liability which you become legally obligated to
pay as a result of injury or damage. The injury
or damage must occur in the course of providing
your professional services.
Id. at 7. The Policy also contained personal injury
coverage and states:
In return for your payment of the premium, it
is agreed that the definition of injury, as
respects only your professional services shall
also include:
A. Testimony given at or arising out of inquests;
B. Malicious prosecution;
C. False arrest, detention, imprisonment;
D. Wrongful entry or eviction or other invasion
of the right of private occupancy;
14a

E. Libel, slander or other disparaging
materials;
F. A violation of an individual’s right to privacy;
G. Assault, battery, mental anguish, mental
shock or hallucination;
All other provisions of this policy remain
unchanged.
Id. at 9.
Under the Policy, “damage” means “physical injury
to tangible property, including all resulting loss of use
of that property; or loss of use of tangible property that
is not physically injured.” Id. at 4. And “injury” means
“bodily injury, sickness or disease sustained by a
person[,]” as well as death as a result of injury. Id. The
Policy requires that the injury or damage occur “in the
course of providing professional services” and “to the
person or persons receiving [the] professional
services.” Id. at 7. The Policy also contains these
definitions:
“Medical Incident” means any act, error, or
omission in the providing of or failure to provide
professional services by you. This includes your
responsibility for anyone acting under your
direction or control.
“Professional Services” means those services
you are licensed, trained, or being trained to
provide within the allied health field specified
in your application and approved by us for
coverage.
15a

Id.
The Policy precludes coverage for: injury or
damage resulting from a medical incident that is also
a willful violation of a statute imposing criminal
penalties (§ A7); injury or damage that was expected
or intended from the Insured’s point of view (§ A2);
and actions or omissions as an unlicensed allied
health professional who is not under the direct
supervision of a physician, nurse, or other licensed
allied health professional (§ I3). Id. at 8. Regarding
representations to ACE, the Policy’s General
Conditions section states: “[b]y accepting this policy,
you agree that: A. the statements in the Declarations
are accurate and complete; B. those statements are
based upon the representations you made to us; and
C. we have issued this policy in reliance upon your
representations.” Doc. 31-1 at 18.
b. The DCF Lawsuit
Plaintiffs filed a lawsuit against the Department of
Children and Families Services (“DCF”), Chapman et
al. v. Florida State Dep’t. of Children & Families, Case
No. 01-CA-010405 (the “DCF Lawsuit”). In the DCF
Lawsuit, Plaintiffs asserted that DCF’s negligence in
failing to investigate complaints about Taylor’s
treatment of minors caused their injuries. After a
trial, the jury found for the Plaintiffs and awarded
damages totaling $5,991,890 to the Chapmans. Doc.
32, Ex. 28. The Florida Court of Appeals overturned
the verdict based on DCF’s immunity. See Dep’t. of
16a

Children and Fam. Services v. Chapman, 9 So. 3d 676
(Fla. 2d DCA 2009), cert. denied 19 So. 3d 310 (2009).
c. The State Court Action
In December 1999, Plaintiffs’ counsel served
Taylor with Notices of Intent to Initiate Litigation (the
“Notices”) under Florida Statutes section 766.106(2).
Doc. 31-1 at Exs. 4, 5.4 The Notices alleged that
“Robert Taylor was not a licensed drug abuse or
mental health counselor for minors such as Gary
Chapman” and that he “was neither qualified nor
licensed to provide that treatment.” Id. at Ex. 4 at 1,
Ex. 5 at 1. Plaintiffs’ medical consultant provided a
verified statement which stated that “Mr. Taylor was
later found to not hold a professional license….” Id. at
Exs. 4, 5. Plaintiffs alleged that Taylor’s treatment of
Gregory Chapman “played a substantial part in
Gregory Chapman’s death on May 31, 1998.” Id. at Ex.
4, Ex. 5. In January 2000, Taylor’s insurance broker
submitted the Notices to ACE. Id. at Ex. 3.
After receiving the Notices, ACE spoke to
Plaintiffs’ counsel who stated that Taylor had no
license to counsel minors. Doc. 31-1, Ex. 6. But, after
the conversation, Plaintiffs’ counsel sent ACE copies
of Taylor’s purported Substance Abuse Provider
licenses for the relevant period. The licenses5 for the
4

Declaration of Anthony Pizzonia.

5 The Substance Abuse Services Licenses for adults only for
non-residential programs; outpatient treatment was for the
period covering 11/27/97- 4/2/98 and 4/3/98 – 4/2/99. Doc. 32-2 at
2, 3.

17a

period that Taylor “counseled” Gregory Chapman
specified “ADULTS ONLY.” Doc. 32-2 at 2, 3. ACE
declined coverage. Taylor received the declination
letter. Doc. 31-1, Ex. 8. ACE has no record of any
response from Taylor. Id. at Doc. 31-1 ¶ 10.
Plaintiffs sued Taylor and his company Recovery
Concepts in state court in the case styled Chapman, et
al., v. Taylor, et al., Case No. 99-06242 in the
Thirteenth Judicial Circuit in and for Hillsborough
County, Florida (the “Chapman Suit”). Id. at ¶ 8. In
the Chapman Suit, Plaintiffs alleged that Taylor held
himself out as properly licensed to provide mental
health counseling to minors and adults, “when in fact
he was not licensed to provide such services.” Id. In
November 2009, Plaintiffs’ counsel sent ACE a copy of
the Amended Complaint. Taylor did not send the
Amended Complaint to ACE. Doc. 31-1 at ¶ 11. ACE
reviewed the allegations of the Chapman Suit to
determine if it alleged any potentially covered claim.
See id. at ¶ 8.
Like the Notices,
explicitly alleged:

the

Amended

Complaint

At all material times, Taylor held himself out to
the public as properly licensed to provide
mental health consulting to minors and adults,
and family counseling as required by Florida
Statute [§] 491.012(2) when in fact he was not
licensed to provide said services.
[Taylor] delivered unlicensed services absent
monitoring by the State of Florida Department
18a

of Children and Family...as required by Florida
Statute [§] 397.409(2).
In applying for a [substance abuse] license …
Taylor
made
false
and
fraudulent
representations to Children and Family
Services, including inter alia that he had a
Master[’]s Degree when in fact he possessed no
such degree, identified colleges and universities
which he had assertedly [sic] attended when he
in fact had not attended such schools; and
concealed his extensive prior criminal record….
[D]uring the relevant time period, complaints
were directed to the Department detailing
Defendant Taylor’s unethical, fraudulent and
illegal conduct, including, inter alia, his
unlicensed treatment of minors….
Defendant Taylor was not qualified by
education, experience or any license issued by
the States [sic] of Florida to provide mental
health counselling to juveniles or adults.
Taylor … concealed from Gregory Chapman
and his parents that Taylor was not competent
or licensed to provide mental health counseling
to Gregory Chapman.
Doc. 31-1, Ex. 9 at ¶¶ 10, 11, 18, 22, 36.
The Chapman Suit also alleged that Taylor
provided mental health counseling to ten-year old
Gregory Chapman for behavioral problems and ADHD
19a

from January 1998 to May 1998 and that he
threatened Gregory Chapman with jail or boot camp.
Gregory Chapman died by suicide. Id., Ex. 9 at ¶ 51.
Chapman alleged causes of action for unjust
enrichment, unfair and deceptive trade practices,
infliction of severe emotional distress and wrongful
death.
On March 11, 2010, ACE wrote to Taylor and
declined any obligation to defend against the
Chapman Suit. Id., Ex. 10. ACE also advised
Plaintiffs’ counsel of its coverage determination. Id.,
Ex. 11. ACE based its declination on several grounds.
It stated that the alleged acts were not covered
professional services. And it stated that Taylor had no
license to treat minors, was fraudulently licensed to
treat anyone for substance abuse, performed
counseling without direct supervision, and made
material
misrepresentations
in
his
policy
applications. Id. It also concluded that the Policy’s
“criminal penalties” exclusion and the “expected or
intended” injury exclusion barred coverage for
Taylor’s alleged intentional conduct. Id. ACE reserved
the right to assert all coverage defenses Id. Taylor did
not dispute ACE’s coverage determination or
otherwise respond to it. Doc. 31-1 at ¶ 10. ACE sent a
second letter to Plaintiffs’ counsel on February 28,
2011, reiterating its decision. Doc. 32, Ex 37.
In May 2012, Plaintiffs and Taylor attended a
mediation conference and entered into the Agreement
to Enter into a Consent Judgment, also known as a

20a

Coblentz agreement6 (the “Agreement”). Doc. 32-50.
Pursuant to the Agreement, the parties submitted a
consent final judgment, which the state court entered.
Doc. 32-51 at 5-6. And Taylor assigned his rights
under the Policy to the Plaintiffs to pursue ACE. Doc.
32-50.
On May 11, 2016, Plaintiffs filed their case against
ACE in this Court alleging breach of contract based on
ACE’s denial of its duty to defend and indemnify
Taylor. On March 27, 2017, ACE filed an answer (Doc.
25) which asserted several affirmative defenses,
including that “defense of the Chapman Suit, and
coverage for the Consent Judgment therein is barred
by: the policy’s expected or intended injury or damage
exclusion, the policy’s exclusion for acts or omissions
of unlicensed allied health professions, the policy’s
exclusion for injury or damages resulting from a
medical incident which is also a willful violation of a
statute, ordinance or regulation imposing criminal
penalties.” Doc. 25 at ¶¶ 10-12. It also asserts that the
claims alleged in the Chapman Suit did not meet the
Policy’s definition of “injury or damage caused by a
6 Coblentz agreements are named for the Fifth Circuit case
Coblentz v. Am. Sur. Co. of N.Y., 416 F.2d 1059 (5th Cir. 1969).
Coblentz agreements permit an insured party to “enter into a
reasonable settlement agreement with the [injured party] and
consent to an adverse judgment for the policy limits that is
collectable only against the insurer.” Garcia v. GEICO Gen. Ins.
Co., 807 F.3d 1228, 1230 n. 1 (11th Cir. 2015) (quoting Perera v.
U.S. Fid. & Guar. Co., 35 So. 3d 893, 900 (Fla. 2010)). In Bonner
v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981) (en
banc); the Eleventh Circuit adopted as binding precedent all
decisions of the former Fifth Circuit handed down prior to
October 1, 1981.

21a

‘medical incident’ in the course
‘professional services.’ ” Id. at ¶ 9.

of

providing

ACE also filed a Counterclaim, seeking a
declaration that ACE had no duty to defend or
indemnify Taylor or Concepts in the Chapman Suit.
See id. at 7. Based on the facts asserted in the
Counterclaim, ACE alleges that “any injuries or
damage allegedly suffered by the Plaintiffs did not
arise out of ‘professional services’ and was not
potentially or actually covered by the Policy.” Id.
II. LEGAL STANDARD
Summary judgment is appropriate when the
pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits,
show there is no genuine issue as to any material fact
and that the moving party is entitled to judgment as
a matter of law. Fed. R. Civ. P. 56(c); Celotex Corp. v.
Catrett, 477 U.S. 317, 322 (1986). The moving party
bears the initial burden of stating the basis for its
motion and identifying those portions of the record
demonstrating the absence of genuine issues of
material fact. Celotex, 477 U.S. at 323; Hickson Corp.
v. N. Crossarm Co., 357 F.3d 1256, 1259-60 (11th Cir.
2004). That burden can be discharged if the moving
party can show the court that there is “an absence of
evidence to support the nonmoving party’s case.”
Celotex, 477 U.S. at 325.
When the moving party has discharged its burden,
the nonmoving party must then designate specific
facts showing that there is a genuine issue of material
22a

fact. Id. at 324. Issues of fact are “genuine only if a
reasonable jury, considering the evidence present,
could find for the nonmoving party,” and a fact is
“material” if it may affect the outcome of the suit
under governing law. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248-49 (1986). In determining whether
a genuine issue of material fact exists, the court must
consider all the evidence in the light most favorable to
the nonmoving party. Celotex, 477 U.S. at 323.
However, a party cannot defeat summary judgment by
relying upon conclusory allegations. See Hill v. Oil Dri
Corp. of Ga., 198 Fed. App’x 852, 858 (11th Cir. 2006).
The standard of review for cross-motions for
summary judgment does not differ from the standard
applied when only one party files a motion, but simply
requires a determination of whether either of the
parties deserves judgment as a matter of law on the
facts that are not disputed. Am. Bankers Ins. Group v.
United States, 408 F.3d 1328, 1331 (11th Cir. 2005).
The Court must consider each motion on its own
merits, resolving all reasonable inferences against the
party whose motion is under consideration. Id. The
Eleventh Circuit has explained that “[c]ross-motions
for summary judgment will not, in themselves,
warrant the court in granting summary judgment
unless one of the parties is entitled to judgment as a
matter of law on facts that are not genuinely
disputed.” United States v. Oakley, 744 F.2d 1553,
1555 (11th Cir. 1984). Cross-motions may, however, be
probative of the absence of a factual dispute where
they reflect general agreement by the parties as to the
controlling legal theories and material facts. Id. at
1555-56.
23a

III. DISCUSSION
Generally, ACE argues that the allegations in the
Chapman Suit did not trigger its duty to defend
Taylor. Further, it argues, if there was no duty to
defend, no duty to indemnify could exist. In the
alternative, it argues that the allegations in the
Chapman Suit fell squarely within several Policy
exclusions. Lastly, it argues that because the
Agreement does not allocate the Consent Judgment’s
awarded damages between covered and non-covered
claims, Chapman cannot enforce the Coblentz
Agreement.
Chapman contends that the Court should use an
analytical framework similar to that of statutorily
mandated insurance coverage cases in determining
whether ACE had a duty to defend or indemnify
Taylor. And he argues that the Chapman Suit’s
allegations, taken as a whole, created a possibility of
coverage triggering ACE’s duty to defend even if some
of the claims fall within the Policy’s exclusions. He
also argues that the DCF Lawsuit established the
facts which triggered ACE’s duty to indemnify. Lastly,
he argues that the case law does not require the
Coblentz Agreement itself to allocate the damages
among the covered and non-covered claims.
Under Florida law, a party seeking insurance
coverage from a consent judgment in a Coblentz
agreement must prove: (1) a wrongful refusal to
defend; (2) a duty to indemnify; and (3) an objectively
reasonable settlement made in good faith. St. Paul
24a

Fire & Marine Ins. Co. v. Cypress Fairway Condo.
Ass'n, Inc., 114 F. Supp. 3d 1231, 1236 (M.D. Fla.
2015). See also Sinni v. Scottsdale Ins. Co., 676 F.
Supp. 2d 1319, 1324 (M.D. Fla. 2009), as amended
(Jan. 4, 2010).
Therefore, in an action to recover under a Coblentz
agreement the facts alleged in the underlying
complaint must state a claim covered by the policy,
i.e., that the insurer had a duty to defend. And despite
the allegations in the underlying complaint or
stipulated facts in the consent judgment, the
plaintiff's underlying claims must come within the
coverage of the policy, i.e., on the merits, the insurer
has a contractual duty to indemnify. See, e.g., Spencer
v. Assurance Co. of Am., Case No. 91–50255–RV, 1993
WL 761408 (N.D. Fla. June 8, 1993) (concluding that
although insurer had a duty to defend based on the
allegations in the underlying complaint, plaintiffs
could not recover under Coblentz agreement because
the actual facts were such that plaintiffs’ claims did
not come within the coverage of the policy), aff'd, 39
F.3d 1146 (11th Cir. 1994).
Once the plaintiff establishes coverage, he or she
must then “assume the burden of initially going
forward with the production of evidence sufficient to
make a prima facie showing of reasonableness and
lack of bad faith, even though the ultimate burden of
proof will rest upon the carrier.” Sinni, 676 F. Supp.
2d at 1324 n. 6 (quoting Steil v. Fla. Physicians’ Ins.
Reciprocal, 448 So. 2d 589, 592 (Fla. 2d DCA 1984)).
This analysis is a fact-intensive inquiry. St. Paul Fire
& Marine Ins. Co., 114 F. Supp. 3d at 1238.
25a

a. Duty to Defend
An insurer’s duty to defend is based entirely “on
the facts and legal theories alleged in the pleadings
and claims against the insured.” James River Ins. Co.
v. Ground Down Engineering, Inc., 540 F.3d 1270,
1275 (11th Cir. 2008). If the complaint contains
multiple claims, some falling within and some falling
outside the scope of coverage, the insurer must defend
the entire suit. Trizec Properties, Inc. v. Biltmore
Const. Co., Inc., 767 F.2d 810 (11th Cir. 1985);
Tropical Park, Inc. v. U.S. Fidelity & Guaranty Co.,
357 So. 2d 253 (Fla. 3d DCA 1978).
If the pleadings show the applicability of a clear
and unambiguous policy exclusion, the insurer has no
duty to defend. Andrews v. Capacity Ins. Co., 687 So.
2d 366 (Fla. 4th DCA 1997). Further, “when the actual
facts are inconsistent with the allegations in the
complaint, the allegations in the complaint control in
determining the insurer’s duty to defend.” Jones v.
Florida Ins. Guar. Ass'n, Inc., 908 So. 2d 435, 443 (Fla.
2005).
The Court resolves all doubts regarding the duty to
defend in favor of the insured. As long as the
complaint alleges facts which create potential
coverage under the policy it triggers a duty to defend.
Trizec Properties, Inc., 767 F.2d at 811. But “a court
cannot rewrite an insurance contract to extend
coverage beyond what is clearly set forth in the
contractual language.” Florida Residential Prop. &
26a

Cas. Joint Underwriting Ass'n v. Kron, 721 So. 2d 825,
826 (Fla. 3d DCA 1998).
i. Coverage
Because Florida law required Taylor to have an
insurance policy to practice, Chapman argues that the
Court should analogize this insurance dispute to
insurance coverage disputes involving statutorily
mandated or controlled coverage. Doc. 32 at 12 (citing
Flores v. Allstate Ins. Co., 819 So. 2d 740, 745 (Fla.
2002)). Unlike fire, life, and property insurance
policies, Chapman argues, the Policy should not be
susceptible to an insurer’s attempt “to limit or negate
protection afforded by law.” Id. (quoting Salas v.
Liberty Mut. Fire Ins. Co., 272 So. 2d 1, 5 (Fla. 1972)).
He argues, the Court should examine the coverage
issue under a two-part test as set forth in Nunez v.
Geico Gen. Insu. Co., 117 So. 3d 388, 393 (Fla. 2013)
which includes deciding whether the condition or
exclusion unambiguously excludes or limits coverage;
and whether enforcement of a specific provision would
be contrary to the purpose of the statute. Id. at 13.
Chapman bases this argument on the proposition that
the Florida Legislature provides protections for
substance abuse clients by requiring providers to
secure insurance coverage before obtaining a license.
See Doc. 32 at 13 (citing Fla. Stat. § 397.403(d)).
The Court rejects this argument, as no basis exists
to apply this particular analytical framework in this
case. The Court in Nunez recognized that “PIP
insurance
is
markedly
different
from
homeowner’s/tenants insurance, property insurance,
27a

life insurance, and fire insurance, which are not
subject to statutory parameters and are simply a
matter of contract not subject to statutory
requirements.” 117 So. 3d at 391–92. Instead, in a
diversity action such as this one, federal courts must
apply the substantive law of the forum state. Florida.
Erie R.R. Co. v. Tompkins, 304 U.S. 64, 58 S.Ct. 817
(1938); Horowitch v. Diamond Aircraft Indus., Inc.,
645 F.3d 1254, 1257 (11th Cir. 2011). Under Florida
law, an insurance policy is treated like a contract;
ordinary contract principles govern its interpretation
and construction. Graber v. Clarendon Nat'l Ins. Co.,
819 So. 2d 840, 842 (Fla. 4th DCA 2002). As with all
contracts, interpreting an insurance contract is a
question of law that the Court will determine.
Travelers Indem. Co. of Illinois v. Hutson, 847 So. 2d
1113 (Fla. 1st DCA 2003). Therefore, the Court will
analyze this insurance dispute using ordinary
contract principles.
Chapman also argues that the Policy clearly
covered injuries arising out of Taylor’s services as a
substance abuse counselor, and that the underlying
claim alleged that Taylor provided those services to
Melissa LaGotte and Gregory Chapman.7 Therefore,
he argues, the Chapman Suit alleged an injury which
arose out of a “medical incident;” arguing that the
term “arising out of” is to be read broadly. Id. (citing
7 Chapman emphasizes that it includes treatment for both
illegal and legal drugs and alcohol. Doc. 32 at 13 n. 2. Chapman
also argues that the Amended Complaint alleged that Taylor and
Concepts breached their duties under Florida Statute section
397.501(3) and were liable under section 397.501(1), which
triggered ACE’s duty to defend. Id. at 15.

28a

Eastpointe Condominium I Ass’n, Inc. v. Travelers
Cas. & Sur. Co. of Amer., 379 Fed. Appx. 906, 908
(11th Cir. 2010)). This argument ignores the Amended
Complaint’s repeated allegations that Taylor was not
licensed because he obtained the licenses
fraudulently.
To reconcile the contradiction between his position
in the Chapman Suit (that Taylor was not licensed to
provide any counseling services) and his position in
favor of coverage in this case (that Taylor was a
licensed substance abuse provider), Chapman argues
that Taylor’s fraud in obtaining his licenses does not
negate the fact that he actually received licenses from
the State of Florida. He also notes that no entity
investigated whether Taylor actually received any
training. Chapman thus maintains that ACE cannot
rely on Taylor’s improper licensure or lack of training
to deny defense coverage. ACE counters that although
Plaintiffs’ counsel provided ACE with a copy of the
licenses, those licenses were outside the four corners
of the Amended Complaint and contradicted it. ACE,
therefore, argues that the allegations that Taylor had
invalid and fraudulently obtained licenses controlled
such that the Policy covered no injuries deriving from
Taylor’s services.
ACE’s argument is correct. Chapman’s attempt to
reconcile his contradictory arguments fail. In
determining whether ACE had a duty to defend Taylor
in the underlying litigation, it is improper to consider
discovery or other extrinsic evidence because “[t]he
duty of an insurer to defend is determined solely by
the allegations of the complaint against the insured,
29a

not by the actual facts, nor the insured’s version of the
facts or the insured’s defenses.” Reliance Insurance
Company v. Royal Motorcar Corporation, 534 So. 2d
922, 923 (Fla. 4th DCA 1988).
Chapman also attempts to establish coverage by
arguing that Mellissa LaGotte turned 18 during her
period of treatment and admitted to occasional drug
use. See Doc. 32-18 at ¶¶ 19.b, 35, 91. Based on those
allegations, Chapman argues that Taylor was treating
an adult for substance abuse problems which fell
squarely within his licensure and triggered a duty to
defend. ACE argues that any allegations regarding
Mellissa LaGotte turning 18 years of age during the
coverage period or admitting to using drugs are
irrelevant because the entire Chapman Suit was
premised on Taylor providing unlicensed services and
therefore did not trigger a duty to defend.
The Court agrees with ACE’s argument. The Policy
covered injury or damage resulting only from Taylor’s
“professional services” as a drug and substance abuse
counselor for which he was “licensed, trained or being
trained to provide.” The Chapman Suit explicitly
alleged that Taylor provided mental health counseling
to ten-year old Gregory Chapman for behavioral
problems and ADHD. See Doc. 32-18 ¶ 19.a. It also
alleged that Taylor was never licensed to provide
mental health counseling to anyone and was not
otherwise competent or licensed to provide mental
health or substance abuse counseling.8 Id. at ¶ 36.
8 Under Florida law, mental health counseling and substance
abuse counseling are distinct and subject to different statutes,

30a

Therefore, allegations regarding Melissa Lagotte’s
behavior are irrelevant to the coverage determination.
Based on the allegations within the four corners of
the Amended Complaint in the Chapman Suit, ACE
had no duty to defend because the alleged acts or
omissions did not fall within the Policy’s definition of
“professional services.”9
ii. Exclusions
The Chapman Suit raised allegations that fell
squarely into several Policy exclusions. “When an
insurer relies on an exclusion to deny coverage, it has
the burden of demonstrating that the allegations of
the complaint are cast solely within the policy
exclusion and are subject to no other reasonable
interpretation. Exclusionary clauses are generally
disfavored.” Szczeklik v. Markel Intern. Ins. Co., Ltd.,
942 F. Supp. 2d 1254, 1269 (M.D. Fla. 2013), aff'd, 546
Fed. Appx. 926 (11th Cir. 2013). The burden of proving
the applicability of an exclusionary clause falls on the
insurer. See, e.g., Penzer v. Transp. Ins. Co., 545 F.3d
1303, 1309 (11th Cir. 2008).
licensing and training requirements. Compare Fla. Stat. § 491.02
et seq. (mental health and family counselors) to § 397.401 et seq.
(substance abuse counselors).
9 Although ACE argues that the Chapman Suit did not allege
that Plaintiffs retained Taylor or Concepts for substance abuse
counseling, it did allege that they “provided Plaintiffs with
mental health and substance abuse counseling.” Doc. 32-18 ¶ 117
(emphasis added); see also id. at ¶¶79, 91, 92, 93, 94, 96, 101.

31a

The Chapman Suit alleged that Taylor
fraudulently obtained his licenses, which is a
misdemeanor under Florida Statute § 397.4075
(1993). See Doc. 32-18 at ¶ 18. It also alleged that all
of Taylor’s acts were intentional or criminal or both.
See id. at ¶¶ 1-38. The Policy excludes coverage
resulting from an incident which is also a willful
violation of a statute, ordinance, or regulation
imposing criminal penalties. Doc. 31-1 at 19. And the
Chapman Suit alleged that Taylor was not directly
supervised as required by law and the Policy. Id. at ¶¶
11, 17. The Policy excludes coverage from “[a]ny of [the
insured’s] acts or omissions as an allied health
student or unlicensed allied health professional who is
not under the direct supervision of a physician, nurse
or other licensed allied health professional, or who is
not employed at a hospital, nursing home, or other
licensed health care provider.” Doc. 31-1 at 19. The
aforementioned allegations fall squarely within the
exclusions of the Policy and justify ACE’s refusal to
defend Taylor against the Chapman Suit.
b. Duty to Indemnify
Because the duty to defend is broader than the
duty to indemnify, and ACE had no duty to defend its
insured against the Chapman Suit, it follows that it
has no duty to indemnify. Geovera Specialty Ins. Co. v.
Hutchins, 831 F. Supp. 2d 1306, 1313 (M.D. Fla.
2011), aff'd, 504 Fed. Appx. 851 (11th Cir. 2013) (“As
Plaintiff has no duty to defend, Plaintiff cannot have
a duty to indemnify.”). Even if ACE had a duty to
defend, the evidence cited by Chapman raises no
32a

genuine issue of material fact that bears on ACE’s
duty to indemnify. And if some evidence suggests a
duty to indemnify, the evidence presented by
Chapman is a “mere scintilla,” and creates no genuine
issue of material fact. See Anderson, 477 U.S. at 252.
c. Reasonableness and Good Faith
An enforceable settlement pursuant to a Coblentz
agreement must be reasonable in amount and
untainted by bad faith. Bradfield v. Mid-Continent
Cas. Co., 15 F. Supp. 3d 1253, 1257 (M.D. Fla. 2014)
(citing Steil v. Florida Physicians' Ins. Reciprocal, 448
So. 2d 589, 592 (Fla. 2d DCA 1984)). The party seeking
to enforce the agreement bears the initial burden of
producing evidence sufficient to show reasonableness
and lack of bad faith. Once the initial showing is made
the burden shifts to the insurer to prove the
settlement was either unreasonable or made in bad
faith. The ultimate burden of proof will rest on the
insurance carrier. Id. If one of the two requirements
has not been met, the Coblentz agreement is
unenforceable. Travelers Indem. Co. of Connecticut v.
Attorney's Title Ins. Fund, Inc., 194 F. Supp. 3d 1224,
1237 (M.D. Fla. 2016).
Reasonableness is determined by “what a
reasonably prudent person in the position of the
defendant [insurer] would have settled for on the
merits of plaintiff’s claim.” Jimenez v. Gov't Emps. Ins.
Co., 651 Fed. Appx. 850, 853–54 (11th Cir. 2016)
(citation omitted). Chapman argues that the damages
awarded in the Consent Judgment are reasonable
because it derives from the jury’s award of damages in
33a

the DCF Lawsuit. Doc. 32 at ¶ 28. ACE neither
disputes the jury verdict in the DCF Lawsuit nor its
reasonableness. It stipulates that the judgment
amounts set forth in the Consent Judgment are
reasonable. Doc. 32-52 at ¶ 1.10
Good faith has no bright line test. But an insurer
may prove a lack of good faith “by evidence of a false
claim, or collusion in which the plaintiffs agree to
share the recovery with the insured, or an absence of
any effort to minimize liability.” Jimenez, 651 Fed.
Appx. at 853–54 (11th Cir. 2016) (citation omitted).
“Courts have found bad faith where, for example, the
amount of the settlement was not subject to good faith
negotiations.” Id. (citation omitted). To demonstrate
the good faith element, Chapman filed the affidavits
of Joseph D. Magri, the Plaintiffs’ attorney, Mark
Chapman, Irene Chapman, Kathy Ruff, William Ruff,
and Melissa LaGotte. Docs. 32-44 – 32-49. All state
that “[t]here has been no agreement with Robert
Taylor or Recovery Concepts to share any proceeds of
any amounts recovered from Ace American Insurance
Company. There has been no fraud or collusion with
10 Although ACE does not dispute the reasonableness of the
Consent Judgment’s damages, it noted the following in its
argument: the jury in the DCF Lawsuit did not hear evidence of
all of the claims at issue in the Chapman Suit, specifically unfair
trade practices, unjust enrichment, or liability for intentional
infliction of emotional distress, Doc. 35 at 21; the DCF Lawsuit
was vacated and Taylor was neither a party nor a witness; no
evidence suggests any effort on Taylor’s part to minimize
liability; and no counsel appeared at mediation or communicated
on Taylor’s behalf about the Consent Judgment. See Docs. 32-42,
32-43, 32-50.

34a

Robert Taylor in entering into or obtaining the
Consent Judgment.” Id. ACE offers no argument in
opposition.
Although the parties do not dispute the
reasonableness of the Agreement and Consent
Judgment or the parties’ good faith in entering into
the Agreement and Consent Judgment, ultimately the
Agreement is unenforceable due to its lack of
allocation between covered and noncovered claims.
Neither the Agreement nor the Consent Judgment
allocate the damages between the claims; therefore
the Court cannot discern the amount attributed
between covered and non-covered claims.11 See Doc.
32-51. Chapman provides no evidence showing that
the parties or the Court can now apportion the
damages awarded in the Consent Judgment. See Duke
v. Hoch, 468 F.2d 973, 977 (5th Cir. 1972) (applying
Florida law and holding that when an insurer
establishes that part of a judgment is for non-covered
damages, the insured must prove the “precise portion
of the unallocated verdict.”). See also Bradfield v. MidContinent Cas. Co., 143 F. Supp. 3d 1215, 1246 (M.D.
Fla. 2015); Keller Indus., Inc. v. Employers Mut. Liab.
Ins. Co. of Wis., 429 So. 2d 779, 780 (Fla. 3d DCA 1983)
(holding that the party claiming coverage has the
11 The non-covered claims include unjust enrichment and
unfair trade practices. These are noncovered economic losses
which are not “injury” or “damage” as defined in the Policy. See
Lazzara Oil Co. v. Columbia Cas. Co., 683 F. Supp. 777, 780
(M.D. Fla. 1988), aff'd sub nom. Lazzara Oil v. Columbia Cas.,
868 F.2d 1274 (11th Cir. 1989).

35a

burden “to apportion damages and show that the
settlement or portions thereof, represent costs that
fell within the coverage provisions of the policy” and
“an unjustified failure to defend does not require the
insurer to pay a settlement where no coverage
exists.”).
Chapman’s argument that there is no requirement
that the consent judgement must apportion the
damages among the claims is unavailing. Chapman
cites Highland Holdings, Inc. v. Mid-Continent Cas.
Co., for the proposition that there is no requirement
that the parties provide an allocation of the damages
within the settlement agreement itself. 8:14-CV-1334T-23TBM, 2016 WL 3447523, at *4 (M.D. Fla. June 23,
2016), aff'd, 687 Fed. Appx. 819 (11th Cir. 2017). But
he does not point to anywhere in the record where the
damages are apportioned between the claims. He
merely directs the Court to the jury verdict, trial
transcript, and evidence in the DCF Lawsuit as a
basis for apportionment of the damages, Doc. 37 at 19
(without citation); and directs the Court to the
Affidavit of Peter Sartes. Doc. 32-53.12 The evidence
and the Affidavit provide no proposed allocation
between the covered and non-covered claims. This
failure is ultimately fatal to enforcement of the
Coblentz agreement.
12 Sartes opines that “there is a [high] probability that Robert
Taylor would have been found negligent in providing substance
abuse services; Doc. 32-53 at ¶ 3; and “the amount of the Consent
Judgment is reasonable for this type of case given the jury verdict
and … testimony which suggests conduct which may go beyond
mere negligence.” Id. at ¶ 4.

36a

IV. CONCLUSION
Although tragic, the events leading to Gregory
Chapman’s death are not covered under the ACE
Policy. Neither the Amended Complaint nor the
Consent Judgment triggered coverage for ACE’s duty
to defend or indemnify Taylor in the Chapman Suit.
The facts alleged in the Amended Complaint place the
case outside of coverage and squarely within several
Policy exclusions. With no duty to defend, ACE had no
duty to indemnify. Even if ACE had a duty to defend,
the actual facts developed through the DCF Lawsuit,
and stipulated to in the Coblentz agreement and
Consent Judgment, triggered no duty to indemnify.
And even if ACE had a duty to indemnify, and
although the Agreement’s reasonableness and good
faith are not in dispute, Chapman’s failure to adduce
evidence that would permit an appropriate
allocation of the damages between covered and
noncovered losses is fatal to his claim. As no genuine
issues of material fact exist, ACE is entitled to
judgment in its favor as a matter of law.
Accordingly,
ADJUDGED:

it

is

ORDERED

AND

1. Defendant's Motion for Summary Judgment
(Doc. 31) is GRANTED. Plaintiffs cannot recover
from ACE on the underlying consent judgment
because ACE had no duty to defend the Chapman
Suit, Chapman, et. al. v. Taylor, et. al., Case No. 9937a

06242, in the Thirteenth Judicial Circuit in and for
Hillsborough County, FL, as that lawsuit did not
allege any claim that was covered by the ACE policy.
Since there was no duty to defend, there was no duty
to indemnify. Even if there was a duty to indemnify,
the Consent Judgment does not appropriately allocate
damages between covered and uncovered losses.
2. Plaintiffs’ Motion for Partial
Judgment (Doc. 32) is DENIED.

Summary

3. All pending motions are denied as moot.
4. The Clerk is directed to enter judgment in favor
of Ace American Insurance Company and against
Mark
Chapman,
individually,
as
personal
representative of the Estate of Gregory Chapman, and
as personal representative of Estate of Barbara
Chapman.
5. The Clerk is further directed to terminate all
pending deadlines and close this case.
DONE AND ORDERED in Tampa, Florida on
June 21, 2018.
/s/ Charlene Edwards Honeywell
United States District Judge

38a

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-12972-DD
________________________
MARK CHAPMAN, individually and as personal
representative of the Estate of Gregory Chapman,
deceased, and the Estate of Barbara Chapman,
deceased, IRENE CHAPMAN,
Plaintiffs-Counter
Defendants-Appellants,
KATHY RUFF, et al.,
Plaintiffs-Counter
Defendants,
versus
ACE AMERICAN INSURANCE COMPANY,
a foreign corporation f.k.a. Cigna Insurance
Company,
Defendant - Counter
Claimant - Appellee.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
39a

Before: TJOFLAT, JORDAN, and EDMONSON,
Circuit Judges.
BY THE COURT:
“Appellant’s Motion to Certify Questions of Law” is
DENIED.

40a

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-12972-DD
________________________
MARK CHAPMAN, individually and as personal
representative of the Estate of Gregory Chapman,
deceased, and the Estate of Barbara Chapman,
deceased, IRENE CHAPMAN,
Plaintiffs-Counter
Defendants-Appellants,
KATHY RUFF, et al.,
Plaintiffs-Counter
Defendants,
versus
ACE AMERICAN INSURANCE COMPANY,
a foreign corporation f.k.a. Cigna Insurance
Company,
Defendant - Counter
Claimant - Appellee.
________________________
Appeal from the United States District Court
for the Middle District of Florida
________________________
41a

[Filed: August 27, 2019]
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: TJOFLAT, JORDAN, and EDMONDSON,
Circuit Judges.
PER CURIAM:
The Petition(s) for Rehearing are DENIED and no
Judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc (Rule 35, Federal Rules of Appellate Procedure),
the Petition(s) for Rehearing En Banc are DENIED.
ENTERED FOR THE COURT:
/s/ J.L. Edmonson
UNITED STATES CIRCUIT JUDGE

42a

